No. 20-585

Supreme Court of the United States

BRIEF OF AMICI CURIAE
NATIONAL ASSOCIATION OF POLICE
ORGANIZATIONS, THE TEXAS MUNICIPAL
LEAGUE, THE TEXAS CITY ATTORNEYS
ASSOCIATION, THE TEXAS MUNICIPAL
LEAGUE INTERGOVERNMENTAL RISK POOL,
THE CITY OF GARLAND, TEXAS, WESTERN
STATES SHERIFFS’ ASSOCIATION, THE
ASSOCIATION OF ARKANSAS COUNTIES, and
THE ASSOCIATION OF ARKANSAS COUNTIES
RISK MANAGEMENT FUND IN SUPPORT OF
PETITIONERS



TABLE OF CONTENTS

TABLE OF AUTHORITIES
CASES

STATUTES

OTHER AUTHORITIES

INTEREST OF THE AMICI CURIAE

SUMMARY OF THE ARGUMENT

ARGUMENT

I.

The Fifth Circuit erred by applying a “snapshot”
standard of review.

II.

The Fifth Circuit further erred in its application of
the clearly-established prong of the qualifiedimmunity analysis.

CONCLUSION

